No. IN THE SUPREME COURT OF THE
UNITED STATES
MATTHEW WILLIAM GEORGE,
Petitioner
v.
COMMONWEALTH OF VIRGINIA
Respondent
CERTIFICATE OF SERVICE
I, Dale Jensen, a member of the Bar of this Court,
certify that on August 6, 2020, forty copies of a
Petition for Writ of Certiorari in the above styled
case and a copy of this certificate were hand
delivered to the police booth at the north side of
the US Supreme Court building and received by a
police officer for delivery to the Clerk’s Office. I
further certify that three true and correct copies
of the Petition for Writ of Certiorari was sent by
United States Mail on this date to:
Attorney General’s Office
Counsel for Respondent
900 East Main Street
Richmond, Virginia 23219
Executed on August 6, 2020
/s/Dale R. Jensen
Dale R. Jensen
DALE JENSEN, PLC
606 BULL RUN
STAUNTON, VA 24401
(434) 249-3874
djensen@jensenjustice.com
Counsel for Petitioner

